Review of Medicare Administrative Costs Claimed by Blue Cross&Blue Shield of Kansas, Inc., Topeka, Kansas (A-07-01-02090)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Administrative Costs Claimed by Blue Cross and Blue
Shield of Kansas, Inc., Topeka, Kansas," (A-07-01-02090)
March 21, 2001
Complete
Text of Report is available in PDF format (2.12 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report covers the audit of administrative costs claimed by Blue Cross and
Blue Shield of Kansas, Inc., for Part A and Part B of the Medicare Program for
the period October 1, 1995 through September 30, 1999. For the period audited,
Blue Cross and Blue Shield of Kansas claimed administrative costs of $17,166,354
for Kansas Part A, $55,678,145 for Kansas Part B, and $22,778,377 for Nebraska
Part B.